(-4

2©=(8©8§

INAL

No.

is

)

IN THE

FILED
DEC 3 0 *

SUPREME COURT OF THE UNITED STATES

L.^»

Vi w

V>c.

— PETITIONER

(Your Name)
vs.
^Tcv~ C.

ovn

_ RESPONDENT(S)

ON PETITION FOR A WRIT OF CERTIORARI TO

£-\S \-Co V *\ \ V -St-'frv(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

/c--g^

V\

(Your Name)
Vv

L

i \

JTT\r

^

%£'

(Address)

X^t'So, cV 72^oj
(City, State, Zip Code)

(Phone Number)

QUESTION(S) PRESENTED
QUESTIONS PRESENTED TO THE COURT
(25). The question presented to the United states Supreme Court, is that the State Courts wrongly
misconstrued the writ of mandate for a habeas Petition, and ruled there was no documentary evidence
to support his Claim for relief, Petitioner attached a Copy of the administrative Appeal as an Exhibit,
showing he filed the appeal, which was referred to in the Statement of Claim, and that is to be
considered proof of the Appeal, which is all he must do, and the Respondent had a ministerial duty
required under the law to answer it, then return the Appeal within the time constraints, pursuant to the
cited Regulations above, however failed to do so. This question presented to review by this high Court
must be that the State Courts refused to give Petitioner a hearing on this substantial claim for relief.

LIST OF PARTIES

[ ] All parties appear in the caption of the case on the cover page.
I>4 All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:
fL-Vk $ n

^ YV AA\s/ ti'T
L. f vw ^i_/r v
Vv-Jl *_wv

RELATED CASES

y /vv»

IVo v^.i'

TABLE OF AUTHORITIES CITED
CASES

PAGE NUMBER
\j.

A\y* V » slvT 1/ .

kksr r. vi £>19: us. IVW hrk ^.V. \^r<Srs\
£vl»-fi9ir^, V ./Vi«Ol\ HVLvl,

U* l/i i(V- (VOo<\
jC‘Wv ("Let^x

Fl U

f*

^

4vt. Wtu lei’s j /oH:
£vl, ‘fTt, )

^ W’

, )loi-

Ci>r+*

l Cje,

aI V^/c5

**'■> t- W

Am^ wr

A «■ ^T v

L/- \&

**

v-|-u VtV,

Ai.'v-

---- £ *- t"Ti o vx

v^OS

*

d-ok*~ <r€

Kt;

L*'"'S o

‘At ..

Vt9i-

-*~<kX»-vc./, iaAa.“{v\

t»4wlV.-Ko« Tvtt*- 10~
’2'ti,u ^

^VvC-t-^X iYV+ti

»*i*\ 1A VI ♦ tA A Vw
^v^Ut l/.
a

^loA*- 1^-rcuvx

?*>©|./A\ 8.

/^v

£S <3*n4kilTuTTi©,^
Vrtf~

1 x>~ £-*>U AH V-ru 6<r? ,
«“* C-&A ^ fi-f £VUi -iVot^A

&v
^ l) A j. ^

u. I ? y*(j

t'~"!

^

A~

*•■£.«** eu

lo'iYrS-fa

a «.

) y4r6

I VM /*\
_c ^ •»Ti 6
■'*' 1 V-»i t^V
-X
£vK-f “^'V (5i/>i
~ ^rj^/A\a\

r "~^l /Lo A
'J-jr u. ^

^£>A «_ _£

OTHER

* 4- Cf P^-J

Ifew. ^ \*1 kl\

/A (\\

<lv(

C-Vl

VA V

X. p"' 's!Vjr f' iA- ^V-r /

STATUTES A^D RUL^^

^vi ;-p fiVM'V

U.i. KH.^Ttw .*,v ,,^1

1 V-v. fv\ h\

& i4

| t 7 3fj“X

Hv. »»Jt - to? i/- (y
L*. h«vi

S^'*'V^

<T‘°^ 2 iL^lo-L^Wt-W 6-*j <u y

14- »^t
*tVu**' krhU, 61?

P 1> ^vT-l ^tVv K-

^ ^ ^

VTk l-S'JiCl'y -6^1

*- 'T > c ^ v 11.

TABLE OF CONTENTS
OPINIONS BELOW

1

JURISDICTION
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
STATEMENT OF THE CASE
REASONS FOR GRANTING THE WRIT
CONCLUSION

INDEX TO APPENDICES
APPENDIX A
APPENDIX B

|&\ rvr. ^ ^)k

APPENDIX C
APPENDIX D £ '/UxWtT' f

Nv*.

^vrCov*
vScWy^-t-

APPENDIXE

rr o v ^ ^

Co ^ v
tT~

APPENDIX F ^slUv\;t )p\
£'#V*\*CT' (^\ £_vU-£ov*tV luf V -t. Vy\

t.

0-f

o i^v-T Dvl

ov^t^

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW
[ ] For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix
the petition and is

to

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the United States district court appears at Appendix
the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
[I^For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix 3
to the petition and is
yi
*[ £Treported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.

The opinion of the _
appears at Appendix

court
to the petition and is

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
1.

to

■1

JURISDICTION
[ ] For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was______________________
[ ] No petition for rehearing was timely filed in my case.
[ ] A timely petition for rehearing was denied by the United States Court of
Appeals on the following date:____________
, and a copy of the
order denying rehearing appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including______
(date) on
(d»te)
in Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).
JURISDICTION
The Courts Jurisdiction to review the Petition is invoked under 28 U.S.C. section 1257(a)

[ ] For cases from state courts:
The date on which the highest state court decided my case was l
A copy of that decision appears at Appendix_______
VKA timely petition for rehearing was thereafter denied on the following date:
__i/'lc/tt, and a copy of the order denying rehearing
appears at Appendix__
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including____
(date) on
(date) in
Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
(22). Petitioner analysis of his Constitutional rights Respondents are violating in this case and their
Provisions involved are serious He argues that, if Petitioner were a Prisoner and respondents were
serving him unsanitary food and polluted water at the same time, can only mean its purposefully done
and it violates the Eighth Amendment of the U.S. Constitution, which is opinioned in Jackson V. Arizona
385 F.2d 639; U.S. App.(9th Cir.1989) which, provides;("lnmates allegations of contaminated Food
and
polluted Water stated an Eight Amendment Claim."). However, Petitioner is a free Citizen who
discharged Parole, and as this deprivation of sanitary food and clean drinking water continues
Petitioners rights are being violated under the Fourteenth Amendment, but Pursuant to PenalCode
section 347. (a)(1) Adulterating Food, Water, Drinks, Medication; where the person knows could be
taken to another human being's injury, is a felony. The Respondents know this is established
Constitutional Statutory law and are violating it.
(23). Additionally, the State Courts have unreasonably applied the constitutional and statutory
provisions in making the determination to deny the relief sought on Petition. Specifically, by first
identifying the correct legal rule, but unreasonable applying it to the facts of this Case, citing Rule Penal
Code section 1473 (a) providing;("Every person unlawfully imprisoned or restrained of his liberty under
any pretense whatever may prosecute a writ of habeas corpus to inquire into the cause of such '
imprisonment or restraint."" which law was correct in determining a Writ of Habeas Corpus or Mandate
which is the same legal vehicle avenue claims, was the correct legal Vehicle to redress an illegal
restraint
on petitioners liberty by Respondent still being continuously electronically monitored by CDCR,
and now
in combination with the San Diego Police Departments, along with claims seeking relief from their
excessive force through food and water contamination policy, then unreasonable applying it to the facts
and denying the relief, and thus the State Courts violated 28 U.S.C. Section 2758(d)(l)(unreasonable
Application).
(24). Furthermore, the state courts have erroneously ruled Petitioner had failed to state a prima facia
case or| rehef‘ The Pet,t,oner clearly set forth ample facts by referring to a Witness Declaration, as proof
o the allegation in the statement of claim, which was the direct material witness evidence of one
Witness, under (California Evidence Code section 411. Which Holds;"(The direct evidence of one
material witness is sufficient for proof of any fact."). Thus, corroborating the allegation, then attaching
the Witness Declaration to the statement of claim as an exhibit, meeting the standards of stating a
prima facie case for relief, held in (People V. Duvall (1995) 9 Cal.4th 464, 474). Therefore in any Court
anywhere, Petitioner stated a prima facie case for relief, so this statutory provision is again established
law the state courts ignored. In its findings.

STATEMENT OF THE CASE

-£

VtTV^L fc- «L~

£^0 Ww f*i W_4r'Y _

1? Wj ^

Vn

't^vvi

t> 't T'U •?_

Jk'ffe^V'Nc— ^L.e2i^\rX~ T<9 v\

/?- ^ f

Z-^L-l 2

2-

Lance R. Martin
615 "C" Street # 85
San Diego, Ca 92101
SUPERIOR COURT OF THE STATE OF CALIFORNIA
IN AND FOR THE COUNTY OF SAN DIEGO

Lance R. Martin,
Petitioner,
Vs.
ew.
CDCR Director C.
SDPD Chief D. Nisleit
Chief Deputy Warden Morris,
California Department of
Corrections & Rehabilitations
Respondents,

Case No.
PETITION FOR WRIT OF
MANDATE WITH
POINTS AND AUTHORITIES
)(
)

Action Filed On;
( Amended Caption Cover Page)

1.
INTRODUCTION
(1). Petitioner (lance R. Martin), hereby brings his Claim for relief in this court, brought over
Respondents underground unlawful deprivation of food, water, Clothing and Bedding policy through
righTto be free fr 38
Petitio™ Vi°'ati°n °f hiS federally protected Fourteenth Amendment
ght to be free from cruel and unusual punishment, and when Petitioner filed an administrative
Grievance requesting an administrative remedy, Respondents failed in their official office duties
required by law to respond and return the appeal within their own appeal response time constraints
violating their own appeal procedures. Therefore, Petitioner essentially seeks an order compelling ’
fmm°f thmS
t0 the'r °Wn mleS 3nd regulations' and duties, as well as prohibiting Respondent
rom further adulterating Petitioners food, water; Clothing and Bedding.
2.
PARTIES
(2). Petitioner (Lance R. Martin), is a natural born United States Citizen, and resident of California
, and
currently residing m San Diego, when Respondents violated his constitutional rights
RehahTtPr-ndent w G'l';*SOn)'the Director of the California Department of Corrections and
Rehabilitations, and as such responsible for the lawful operations of all its Divisions and institutions

3.
STATEMENT OF FACTS

(6).

Petitioner (Lance R.

SSTSSZSKSffisaSSS... ..
in
DfeJcalPfomla

'c 7<Par°'e
“*"8 located at 1202 Kce Street san
go California 92114 the California Department of Corrections and rehabilitations and san Diego Police
epar ment specifically, the South Eastern Division, which has departmental patrol jurisdiction where
Petitioner was housing, m concert with (CDCR) El Centro and Chula vista Parole Unit Officers these
vZZmTmoT™'** ""
°Ut 3 f°°d' W3ter; C'0thing and Bedding -lamination

(8). On September 25, 2018, petitioner mailed an administrative appeal on the officials involved in the
misconduct to the CDCR Appeal Office See, (EXHIBIT (A) Appeal 9/25/2018 Dated), which additionally
had a signed material Witness Declaration attached as an exhibit, in support of the appeals allegation
Hs ed 3th
i Witn6SS Mr °anny °elk- The WitneSS dedared that 911 the government employees
listed on the appeal were using an Electronic Monitoring Device, which worked like telepathy to
lZ2alnTn^°Tl ^i P\0Ple 'iVing in tHe H°USe inC'Uding the Witness t0 c°ntaminate Coffee with
Bleach and other harmful substances, then offer it to petitioner, as well as the Parole House manager
umg Food to the House adulterated, even pre-packaged that way, like the Packaged Rice smelling like
human feces, and combined with tasting like it, and the Bread issued saturated with a wet sticky glue
type substance. See Mr. Delk Declaration as (EXHIBIT (B) Mr. Delk Declaration dated 9/20/2018)
(9). Additionally, the Witness declares the Water coming out of the faucet smelling fouled
substantiating Respondents have an ongoing water polluting policy implemented at the Independent
iving Parole House against Petitioner, the mechanism for which is unknown, but true. Pursuant to
California Code of Evidence Section 411)("The direct evidence of one material Witness entitled to full
credit is sufficient for proof of any fact."). Now at this time Respondents are contaminating petitioners
obaccD products, with a chemical causing extreme headaches if petitioner smokes it, known as "C" see
Petitioners Affidavit as (Exhibit (C) Mr. Martin Declaration).
4.
LEGAL FRAMEWORK
(iO). Respondents know their illegal actions alleged and proven above are violating clearly established
w. Specifically, If Petitioner was a State Prisoner deprivation of food and water through insanitary or
chemical action violates the Eighth Amendment of the United States Constitution see Lkson V V
Arizona, 885 F.2d 639; U.S. App.(9th Cir.l989)("lnmates allegation of contaminated food and polluted
wa er stated eighth amendment claim.") However, since Petitioner is a free citizen Respondents are
^Slir'Th h uUrteenth Amendment ri§ht' and Respondents are violating Penal Code Section

|n)- °n^Ptember 25' 2018' Petitioner submitted his appeal to the Inmate Appeal Office and it',
une 14, 2019, and as of yet Respondents have failed in their duties required bv law to recnnnd h now
return the appeal within 30 days of receiving it, violating ( 15 CCR SeSJ 8^1)^
appeals shall be

responded to and returned to the parolee within 30 working days from receipt by the appeals office.).
Therefore, in cases where there is an untimely appeal response, the courts have ruled the proper
course
of action, is to not proceed in court on unexhausted appeal claims, but to file
a petition for writ of
mandate,
... . recl^tmg the court to order Respondents to answer, and return the appeal without delay
see Wnght v. California, (2002)122 Cal.App.4th 659,667-668(19 Cal.Rptr.3d 920]("Suggesting where
appeal response delayed in state case, proper course of action is to not proceed on unexhausted claims,
but to file a Petition for writ of mandate.'). Additionally, pursuant to ( California Code of Civil Procedure
Section 1085(a) ("A Writ of Mandate may be issued by any Court to any inferior Tribunal, Corporation
Board, or Person, to compel the performance of an act which the law specifically enjoins, as a duty
resulting from an Office, Trust, or Station, or to compel the admission of a party to use and enjoyment of
a right or office to which the party is entitled, and from which the party is unlawfully precluded by that
inferior tribunal, corporation, board, or person."). The Respondent has unlawfully precluded Petitioner
from the right to file an appeal, and have it answered and returned under the time constraint
regulations set forth above in the California Code of Regulations Title 15.
(12). Petitioner has submitted amble facts supporting his claims these combined law enforcement
agencies, and all persons acting in concert with them, specifically the Respondents implemented an
underground Food, Water, Drinks, Bedding and Clothing contamination policy against petitioner
violating his Fourteenth Amendment right, and are conducting an illegal search and seizure of his
person, which entails even after Petitioner discharged his parole on April 9, 2019, Respondents still
are
continuously electronically monitoring him with an illegal GPS wire- tap on his person and Cellular
phone used to run their poisoning operation, the Surveillance Device Respondents are illegally using is
cited in the 2011 year Penal Code Section 9001,(d)("a device resistant or impervious to unintentional or
willful damage. ) 9002.(a)("Computer software and hardware architecture which is capable of
communicating with the computer systems of law enforcement to a degree required by the supervising
authority."). Petitioner is informed and believes the Attorney General is listed in the State Department
registry of ordering this Surveillance equipment being used to continuously electronically monitor
petitioner through having the following Courts check it out of the State Departments Registry San Diego
County Superior Court; and United states District Court for the Southern District of California-'
additionally Eastern Federal District Court The California Supreme Court and Fourth Appellate Districtused through CDCR Global Positionings Systems, which now constitutes an illegal search and seizure '
under the fourth amendment, due to petitioner no longer being under CDCR jurisdiction
as he
discharged parole, see (Exhibit (D) CDCR Parole Discharge ID Card).
CAUSE OF ACTION; WRIT OF MANDATE
ih3)i i The Rfpon^ents have a clear' Present and ministerial duty to comply with the requirements of
the United states Constitution, and the California Code of regulations Title 15. At all times relevant
herein, respondents have continued to have the ability to do so. Notwithstanding, these duties and
abilities Respondents have failed, and they continue to fail to perform their duty required by law
Petitioner is suffering irreparable harm of the law, and physical injuries, and he has no speedy or'
adequate remedy in the ordinary course of the law to compel Respondents to comply with the above
en ion requirements, thereby rendering this courts peremptory Writ of Mandate appropriate in that;
A) Petitioner will continue to suffer as long as Respondents fail to comply with the
requirements of the Constitution, and California Code of regulations, and California
renal Codes.

B)

Money damages will not adequately compensate for the harm
caused to Petitioner,
and those similarly situated.

5.
application on appeal to fourth district
COURT OF APPEALS

• Petitioner
capricious CDCR Zm ■

T "T?

*"

="d

(16).

Manda,e'for a wri* °f Habeas c°rpus

required under existing law to review and return CDCR
— Pt°S'tl0n' failmg t0 perf'orm It's duties
proper course of action was to file a Writ of MandatP
JT'T
ag6nCy appeal- ln this instance
T-6881 which holds; (" Suggesting
“e^:^
the original to the Appeal Assignment Office The rn
fTh 3 C°PV °f ^ appea1, and then submitting
attached to the petitl, and
,0e” ^T " “T
turn an CDCR agency administrative decision whirh
1 f f rt 1 The petltl0n sought to overthe timelines established in California Code of regulatbnTcitedVbove^'Th" ^
^ 3PPeal Within
discretion, by refusing to hear the Writ of Mandate and c
5
Therefore'th® Judge abused her
Writ of Habeas Corpus. This decisloTl/“
e™<y ruling ■
on a
1094°5(a)(''wheCreOthe,whtTstwhtIssued for the vahdity of0rri'afl"0deg ^ fi^^rocedunaTection^00^

wh^^^
trial; and whether there was any prejudicial abuse nf H'°f jurisdlctl0n; whether there was a fair
respondent has not proceeded in the manner requiredrv7aTthAebUSrf °f di'Cre,ion is established if the
the findings, or the findings are not supported by the evidence ”) The

required by law cited above

“r " * n0' SUppor,ed ^

re"ef' 3nd 35 SUCh' did not rula In the manner

misconstrued Habeas Corp” PetrtTon""‘because plmionCTifno!0^01^"6 re"ef by ruli"e
jurisdiction to ruie over Respondent CDCR

on the
h'™'0 ^
alleged and proven within the

r",-r ■■

■-- -...........

Witness, which was submitted into evidence herein derla • e_d'rect eviden« of the one (material
software on people around petitioner and the witne« i nng ReSpondents are usin§ GPS computer
with the device, which the Superior Court reviewed whiachS7nPTting,P!?'°ner being monitored too
after petitioner paroled, therefore, Respondents have met : ^ ^ ^°m' becausewas continuing
unreasonable search and seizure, and as such ,be San n ‘Ts
Pe"''0ner °f<hiS
to be
*»"
Petitioner and Respondents to issue the Writ under PenalCod/sT ^ had;jurisdiction over
person unlawfully imprisoned or restrained of hi 1?
! Sect,on 1473 (a) which holds; ("Every
writ of habeas corpus to inquire into the cause of such Imori!" ^ Pretense wh3teuer maV prosecute a
(16). Lastly, Petitioner submitted ample acts bear b 'mpn!onme"t °r restraint.")
(CDCR) (5DPD) Respondent acting in concert toeetL "a P™ed
f°°d and watertbr°P8h a
software to command and verbahy cintrol a human1“,
8r°Und P°'iCV' Whicb uses ,he GPS computer

re again the san Diego
...,c
.
n based on the substantial evidence
as not in accordance with established law
Petitioner prays the Appellate Court
Wherefore,
reverse this order and .decision.

osxxzrxsr ■abused i,s ^ efo
7.
APPLICATION TO APPEAL IN
THE SUPREME COURT OF CALIFORNIA

improper for the following reasons se, forth Mow

^

Division °0764°8r
2 denied p“^
—
™$
iS

(18). REASON ONE, the Fourth District Court of.Appeals Divisi
mandate and the petition for
PM ais uivisi on One ruled, "the Petition for writ of
Haller and O'Rourke. Petitioner is not entitled to relief h
^ COnSidered bV Justl'ces Huffman,
released from prison and discharged from parole Ip
^nt0 abeas corpus because he has been
Kim (2009)45 cal 4th 1078 1108 ) Petir
eople V. Villa (2009) 45 Cal.4,h 1063,1069; people v
P.aln,' speedy and adeXe m ^1‘ToZiT* *, T *
°f ma"da'a b— XX
section 1086; Flores V, Departmen
Co rec 0
206.). The petitions are therefore denied

a

° ^bu
' '*W ^,Coda
rehabll*ations 92014) 224Cal.App. 4th 199,205-

(19). This is'incorrect, as
Petitioner after''he'd,'°
GPS «*'"« Nation
devices on
an unlawful restraint on his liberty, therefore pursuSnt'to"|Sp°°d| !.nd.Wa,er adul,eration policy, which is
prosecute a writ of habeas corpus, which the state r™ , > „ „
' s««pp 1473(a)), he may
Of Mandate also allowed petitioner to seek relief from an Illegal rt" Wr°nelV
a8ai"st' but the wrlt
Ignored by the court. Also the Petition sought relief t
8
dmm,s,ratlve aPPeal decision
and was
tracking Petitioner wlth X eX’ JXX X
P0,i“ Dapartment.
CDCR, and then instigated or ratified ou, to the

sdPD

I rh" Wa,Er P°iSOn petiti°"a' r, implemented by
petitioner may prosecute this unlawful restraint on his lih tT
' Underl7in6 Claim, and as such
i"6- 3S the Raspo"da"< CDCR Director Gibson ,s sti.... egally usingXX Writ Pa,iM°ner'appeala
on Petitioner implementpH

from her individual Institutions including; (HDSP) (RJD) (KVSP) (MCSP) (LAC) and Calipatria State Prison,
and New Folsom State Prison where Petitioner was previously housed.
8.
JURISDICTION
(20). The Courts Jurisdiction to review the Petition is invoked under 28 U.S.C. section 1257(a)

9.
PETITION FOR WRIT OF CERTIORRARI
(21). On December 3, 2019 the California Supreme Court issued its Ruling in the above matter, which
transferred the case to the Fourth District Court of Appeals, Division One, which was again wrongly
denied as a duplicative Petition, see Order as (EXHIBIT (G) California Supreme Court Order Case Number
S259157 dated 12/3/19). This Order is improper for the following reasons set forth below and in their
supporting facts and authorities.

10.
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
(22). Petitioner analysis of his Constitutional rights Respondents are violating in this case, and their
Provisions involved are serious He argues that, if Petitioner were a Prisoner and respondents were
serving him unsanitary food and polluted water at the same time, can only mean its purposefully done,
and it violates the Eighth Amendment of the U.S. Constitution, which is opinioned in Jackson V. Arizona,
885 F.2d 639; U.S. App.(9th Cir.1989) which, provides;("lnmates allegations of contaminated Food and
polluted Water stated an Eight Amendment Claim."). However, Petitioner is a free Citizen who
discharged Parole, and as this deprivation of sanitary food and clean drinking water continues,
Petitioners rights are being violated under the Fourteenth Amendment, but Pursuant to Penal Code
section 347. (a)(1) Adulterating Food, Water, Drinks, Medication; where the person knows could be
taken to another human being's injury, is a felony. The Respondents know this is established
Constitutional Statutory law and are violating it.
(23). Additionally, the State Courts have unreasonably applied the constitutional and statutory
provisions in making the determination to deny the relief sought on Petition. Specifically, by first
identifying the correct legal rule, but unreasonable applying it to the facts of this Case, citing Rule Penal
Code section 1473 (a) providing;("Every person unlawfully imprisoned or restrained of his liberty, under
any pretense whatever may prosecute a writ of habeas corpus to inquire into the cause of such
imprisonment or restraint."" which law was correct in determining a Writ of Habeas Corpus or Mandate
which is the same legal vehicle avenue claims, was the correct legal Vehicle to redress an illegal restraint
on petitioners liberty by Respondent still being continuously electronically monitored by CDCR, and now
in combination with the San Diego Police Departments, along with claims seeking relief from their
excessive force through food and water contamination policy, then unreasonable applying it to the facts

and denying the relief, and thus the State Courts violated 28 U.S.C. Section 2758(d)(l)(unreasonable
Application).
(24). Furthermore, the state courts have erroneously ruled Petitioner had failed to state a prima facia
case for relief. The Petitioner clearly set forth ample facts by referring to a Witness Declaration, as proof
of the allegation in the statement of claim, which was the direct material witness evidence of one
Witness, under (California Evidence Code section 411. Which Holds;"(The direct evidence of one
material witness is sufficient for proof of any fact."). Thus, corroborating the allegation, then attaching
the Witness Declaration to the statement of claim as an exhibit, meeting the standards of stating a
prima facie case for relief, held in (People V. Duvall (1995) 9 Cal.4th 464, 474). Therefore, in any Court
anywhere, Petitioner stated a prima facie case for relief, so this statutory provision is again established
law the state courts ignored. In its findings.
11.
QUESTIONS PRESENTED TO THE COURT
(25). The question presented to the United states Supreme Court, is that the State Courts wrongly
misconstrued the writ of mandate for a habeas Petition, and ruled there was no documentary evidence
to support his Claim for relief. Petitioner attached a Copy of the administrative Appeal as an Exhibit,
showing he filed the appeal, which was referred to in the Statement of Claim, and that is to be
considered proof of the Appeal, which is all he must do, and the Respondent had a ministerial duty
required under the law to answer it, then return the Appeal within the time constraints, pursuant to the
cited Regulations above, however failed to do so. This question presented to review by this high Court
must be that the State Courts refused to give Petitioner a hearing on this substantial claim for relief.

REASONS FOR GRANTING THE PETITION
(26). Finally, the reasons for granting the Petition are serious. Petitioner seeks an Order prohibiting
Respondents from illegally further continuing to adulterate Petitioners Food, water, bedding and
clothing with harmful foreign substances, and using law enforcement electronic surveillance, specifically
GPS devices to run the operation, to protect the rights of Petitioner under and Fourteenth and Fourth
Amendments. The granting of such relief will serve the public interests, because as a general matter, it is
always in the public interests for Prison officials to obey the law, especially the Constitution, PhelpsRoper V. Nixon, 545 F. 3d 685 (8th Cir. 2008); see also Duran V. Anaya, 642 F. Supp. 510, 527
(D.N.M.1986), as respect for the law, particularity by Prison officials responsible for the administration
of the States correctional system is in itself a matter of the highest public interest, Liewelyn V. Oakland
County Prosecutors Office, 402 F. Supp. 1379, 2393 (E.D. Mich. 1975)("Stating the constitution is the
ultimate expression of public interest."), obviously, after reviewing the Petition and it's evidence, of
Respondents refusing to perform their required duty and review then return an administrative appeal
violating their appeal regulations, and contaminating Petitioners food and water by verbally
commanding other people around Petitioner to do it, by using GPS Computer Technology, conducted
from their Prison and San Diego County South Eastern Police Division evidenced in the Claim, the
Respondents have no respect for the law, and as such should be compelled to comply.

(27). Petitioner is without a remedy save for this Writ of Mandate. Petitioner respectfully requests the
Court.
1. Grant the Petition;
2. Issue and Evidentiary Hearing;
3. Reverse the State Courts decision.
4. Grant any and all other relief the Courts deems just and proper.

Date

Respectfully Submitted,_

Lance R. Martin
Petitioner

CONCLUSION

The petition for a writ of certiorari should be granted.

Respectfully submitted,

Date:

%

h?-/

